Hotline Review            October 29, 2010 


Hotline Allegations Involving Management 

  Harassment of a Complainant in the 

      Defense Contract Audit Agency 

             Western Region 


        Report No. D-2011-6-001 

  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector General of the
  Department of Defense at www.dodig.mil/audit/reports or contact the Office of the
  Assistant Inspector General for Audit Policy and Oversight at (703) 604-8760 or fax
  (703) 604-8982.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760
  (DSN 664-8760) or fax (703) 604-8982. Ideas and requests can also be mailed to:


                           Office of the Assistant Inspector General


                                for Audit Policy and Oversight


                        Inspector General of the Department of Defense 

                              400 Army Navy Drive (Room 833)


                                  Arlington, VA 22202-4704 





Acronyms

DCAA          Defense Contract Audit Agency
IG            Inspector General
GAGAS         Generally Accepted Government Auditing Standards
                                 INSPECTOR GENERAL 

                                 DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON, VIRGINIA 22202-4704 



                                                                              OCT 2 9 2010 


MEMORANDUM FOR DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY


SUBJECT: Report on Hotline Allegations Involving Management Harassment of a
         Complainant in the Defense Contract Audit Agency Western Region
         (RepOitNo, D-2011-6·001)

        We are providing this repOit for your information and use. We pcrformed this
review based on a Defense I-Totline eomplaint. We eonsidered management comments on
a draft of this repOlt when preparing the final report. The management comments
conformed to the requirements of DOD Directive 7650.3; therefore, additional comments
are not required.

      We appreciate the courtesies extended to the staff. Questions should be directed to
Ms. Carolyn R. Davis at (703) 604·8877 (DSN 664-8877), Carolyn.Davis@dodig.mil.

                                     ~~-
                                   ,/,/~andolph R. Stone
                                       Deputy Inspector General
                                        for Policy and Oversight
Table of Contents


Results in Brief		                                                                   i



Introduction
     Objective                                                                      1


     Background                                                                     1



Findings
     A.		   Hotline Allegation: Harassment by Western Region Management             3


               Using the Performance Appraisal Process as a Means of Harassment     3


               Impeding Compliance with Generally Accepted Government Auditing


                 Standards                                                          6


               Undue Stress Forced the Downgrade                                    6


               Recommendation A                                                     8



Appendix
     A. Scope and Methodology		                                                    11


     B. Chronology of Events		                                                     12



Management Comments
     Defense Contract Audit Agency		                                               13


                 Hotline Allegations Involving Management


                   Harassment of a Complainant in the 

                       Defense Contract Audit Agency


                              Western Region



Results In Brief
What We Did                                          What We Recommend
We reviewed the DoD Hotline complaint                DCAA should reassess the complainant’s
alleging that Defense Contract Audit                 2006 through 2008 performance appraisal
Agency     (DCAA)      Western     Region            ratings and promotion potential scores,
management used various means to harass              considering all the work she performed and
the complainant between 2006 and 2008.               the harassment she endured. DCAA should
                                                     also consider whether the 2006 through
What We Found                                        2008 ratings influenced any subsequent year
                                                     ratings. The DCAA Director needs to take
We substantiated the allegations that DCAA           appropriate administrative actions for the
Western Region management had harassed               improper use of the performance appraisal
the complainant by unjustifiably lowering            process as a means of harassment. Finally,
the complainant’s performance ratings,               the DCAA Director should evaluate the
impeding her ability to comply with generally        adequacy of current quality assurance
accepted government auditing standards, and          procedures for preventing appraisal ratings
creating a highly stressful environment which        from being used as a means of harassment.
forced her to take a lower graded position. In
a February 2010 report, DCAA’s Internal              Management Comments and Our
Review team had substantiated these                  Response
allegations. DCAA took several remedial
actions, such as reevaluating and adjusting
                                                     DCAA concurred with all recommendations
the complainant’s appraisal ratings to fully
                                                     and provided an adequate plan for
successful.     We commend the Internal
                                                     implementing them. The DCAA action plan
Review team for recognizing the harassment
                                                     includes adjusting the complainant’s 2006
and recommending appropriate remedial
                                                     through 2008 ratings to her 2005 levels.
actions.    However, in reevaluating her
ratings, the Internal Review team did not            United States Department of Defense Office of Inspector General


consider all of the complainant’s work or the             ______{Project No. D2010-DIP0AI-0251.000)_____


                                                                        Report No. D-2011-6-001


harassment she endured. In addition, DCAA                                  October 29, 2010


Western Regional management failed to
hold management officials accountable for
their misconduct or revise any related
procedures.


                                                 i
                                Introduction


Objectives


    We conducted this review to determine whether we could substantiate allegations
    concerning management harassment of the complainant while working for an audit team
    in the Western Region of Defense Contract Audit Agency. The complainant specifically
    alleged that management:

       1.		 Used the performance appraisal process as a means of harassment by lowering her
           performance rating and promotional potential score;
       2.		 Impeded the complainant’s ability to comply with Generally Accepted
           Government Auditing Standards; and
       3.		 Subjected the complainant to undue stress and harassment that forced her to take a
           downgraded position.

    See Appendix A for a discussion of our scope and methodology.


Background
    Defense Contract Audit Agency (DCAA), under the authority, direction, and control of
    the United States Under Secretary of Defense (Comptroller), is responsible for
    performing contract audits for the DoD and providing accounting and financial advisory
    services regarding contracts and subcontracts to all DoD Components responsible for
    procurement and contract administration. These services are provided in connection with
    negotiation, administration, and settlement of contracts and subcontracts.

    The allegations addressed in this report involve an audit team assigned to the DCAA
    Western Region, consisting of approximately nine members.

    The Complainant joined DCAA in 1984 and served as a Technical Specialist (grade 13)
    beginning in 2000. As a Technical Specialist, she performs a variety of complex audits
    and provides audit technical guidance to other auditors on the team.

    In 2005, the complainant transferred to the Western Region with the same job title
    (technical specialist) and duties and responsibilities. The complainant received the
    highest possible annual appraisal rating (outstanding) for the last three years prior to
    transferring to DCAA Western Region. By 2008, the complainant’s rating under the
    Western Region audit team declined to the lowest level (unacceptable). On
    April 24, 2008, the complainant elected to be downgraded to a Senior Auditor position
    (grade 12), after alleging that she had suffered serious “emotional and physical distress”




                                             1

working for the Western Region audit team. In September, 2008, the complainant filed
her complaint with the Director of DCAA, who then forwarded it to the DoD Hotline.

The DCAA Internal Review Team, hereafter referred to as Internal Review,
investigates allegations of wrongdoing made against Agency employees. Internal
Review also performs periodic reviews and evaluations and serves as a resource for
resolution of workplace related concerns.

Internal Review investigated this complaint and issued a report of its findings on
February 18, 2010. Internal Review largely substantiated the allegations. They
substantiated that management used the performance evaluation process as a means of
harassment, overemphasized metrics which impacted the complainant’s ability to comply
with GAGAS, and subjected the complainant to undue stress and harassment which
forced the complainant to request a lower graded position.

Based on the Internal Review findings, DCAA:

   •		 revised the complainant’s 2007 and 2008 performance appraisals to fully


       successful, and her 2007 promotion potential score from 52 to 60;


   •		 restored her grade 13 and awarded retroactive pay representing the loss in wages
       from the downgrade; and
   •		 paid the complainant a team award that management had previously denied her.




                                       2

                                    Findings


A. Hotline Allegation: Harassment by
   Western Region Management
  We substantiated the allegations that management of an audit team in the DCAA Western
  Region harassed the complainant by:

        1.		 Using the performance appraisal process as a means of harassment by lowering
             her performance rating and her promotional potential score;
        2.		 Impeding the complainant’s ability to comply with Generally Accepted
             Government Auditing Standards; and
        3.		 Subjecting the complainant to undue stress and harassment that forced her to take
             a downgraded position.

    While Internal Review largely substantiated these allegations, they did not consider all
    work that the complainant performed or the harassment she endured when they adjusted
    her appraisal ratings to fully successful. DCAA also did not hold any management
    officials accountable for their actions or revise related procedures to prevent
    reoccurrences.

 1.		 Using the Performance Appraisal Process as a Means of Harassment. We
      substantiated the allegation that Western Region management used the performance
      appraisal process as a means of harassing the complainant.

    DCAA Appraisal Process. The appraisal process at DCAA includes two components,
    the performance appraisal rating and the promotion potential score. The objective of the
    performance appraisal is to evaluate the employee’s degree of proficiency against pre­
    established job criteria. The complainant is rated on four criteria; Audit Performance,
    Technical Advice, Team Coordination, and Working Relationships. For each criterion,
    DCAA employee performance is rated on a 5-level scale (highest to lowest): outstanding,
    exceeds fully successful, fully successful, minimally successful, and unacceptable. Using
    the same 5-level scale, an overall rating is determined primarily on the average rating of
    the four criteria. The promotion potential score, which is based on a 120-point scale,
    serves to gauge the employee’s ability to assume greater responsibility and meet more
    demanding work requirements based on the employee’s demonstrated competencies.

    Internal Review Investigation. Internal Review evaluated the complainant’s appraisal
    ratings and performance potential scores given by Western Region management
    from 2006 to 2008. Internal review found significant flaws with the 2007 and 2008
    appraisals and had them adjusted to fully successful. The table below shows the



                                             3

        complainant’s ratings and promotion potential scores initially granted by Western Region
        and adjusted by Internal Review.

                            Table. Complainant Appraisal Ratings and Potential Scores
                                 Initially Granted               Adjusted by Internal Review
                              Overall             Potential        Overall             Potential
               Year      Appraisal Rating          Score      Appraisal Rating          Score
               2006       Fully Successful           60        Fully Successful           60
               2007     Minimally Successful         52        Fully Successful           60
               2008        Unacceptable          Not scored    Fully Successful       Not scored

        For 2006, the complainant’s fully successful rating represented a 2-level reduction from
        her outstanding ratings received in the prior three years. The complainant’s potential
        score also declined from 72 in 2005 to 60 in 2006 1. The complainant disagreed with the
        appraisal rating in a memorandum to management. Management did not respond to her
        memorandum and did not file it in the official personnel file as she requested. Internal
        Review concurred with management’s 2006 rating and potential score based on a limited
        reading of the appraisal and the complainant’s disagreements, but objected to the
        exclusion of the complainant’s disagreement from her personnel file. Internal Review
        stated that management’s failure to document the complainant’s appraisal comments in
        her official file was “inexcusable.”

        For 2007, the complainant disagreed with her minimally successful rating in a formal
        grievance but Western Region management rejected the grievance. Internal Review
        adjusted the rating to fully successful based on its evaluation of the audit performance
        criterion. Internal Review adjusted the rating because some of management’s assertions
        in the appraisal were “inconsistent, not convincingly supported, unsubstantiated and not
        in accordance with the Agency standards.” For example, Internal Review disagreed with
        management’s assertions of untimely performance and its impact on the Agency’s
        program plan. Internal Review attributed the timeliness issue to management’s poor
        tracking of workload and said that management should not have rated the complainant
        against the Agency’s program plan. Internal Review also disputed the assertion that the
        complainant did not communicate audit benefits to the customer. Internal Review also
        recommended increasing the promotion potential score from 52 to 60.

        For 2008, the complainant disagreed with her unacceptable rating as part of her
        September 2008 complaint submitted to the Director of DCAA. Like the 2007 rating,
        Internal Review adjusted the 2008 rating to fully successful based on its evaluation of the
        audit performance criterion. Internal Review found several statements in this rating that
        were without merit. For example, Internal Review found no basis in support of
        management’s claims that the complainant had failed to objectively evaluate pertinent
        facts, develop sound audit conclusions, or adequately document her conclusions in the
        working papers. After discovering management’s unfounded assertions on just two

1
 The 1-year drop in promotion potential score from 72 to 60 is significant and could have prevented the
complainant from being considered for promotion to a higher graded position.


                                                         4

assignments, Internal Review rejected the 2008 exit rating in its entirety and found it to
be “harmful” to the complainant. In adjusting her performance rating to fully successful,
Internal Review evaluated two of the six audits that the complainant had completed
in 2008.

Our Review. We reviewed the appraisals and working papers supporting the Internal
Review evaluation. We agree that the 2007 and 2008 ratings were significantly flawed.
However, we question Internal Review’s recommendation to accept the 2006 fully
successful rating and adjust the 2007 and 2008 ratings to fully successful. Internal
Review did not articulate a detailed rationale for the fully successful ratings or compare
the complainant’s overall performance to the established criteria for a fully successful
rating. In addition, the fully successful ratings for 2007 and 2008 were based on Internal
Review’s evaluation of the audit performance criteria only. Internal Review did not
evaluate the other three criteria that should form the basis for these appraisal ratings.
Also, Internal Review did not evaluate four of the six assignments that the complainant
completed in 2008. Internal Review should not have relied on any portion of the 2006
through 2008 appraisals in adjusting overall ratings to fully successful. Due to the
significant flaws found, Western Region management lacks any credibility with respect
to rating the complainant.

Furthermore, we found no evidence that Internal Review took into account the highly
stressful and harassing environment that the complainant had to endure. As discussed
below under “Causing Undue Stress and a Forced Downgrade,” the complainant was
essentially forced to take a downgrade due to the poor work environment. It would not
be fair or reasonable to rate the complainant while ignoring the highly stressful work
environment.

DCAA should reassess the complainant’s appraisal ratings and potential scores
from 2006 to 2008, based on all performance criteria and work performed. The
reassessment also needs to consider the highly stressful and harassing environment which
might have impaired the complainant from performing at her full potential. After
completing the reassessment for 2006 through 2008, DCAA should consider whether the
fully successful ratings unduly influenced any subsequent year ratings (2009 and
beyond). DCAA needs to take into account that the complainant was a top performer
(outstanding) for 3 years prior to transferring to the Western Region and enduring the
harassment.

DCAA pointed out that the employee bears the burden of justifying a rating higher than
fully successful, in accordance with DCAA Personnel Manual, Chapter 17, Section 6.
While only ratings above fully successful must be supported, this case involves a unique
intervening factor (harassment) that might have prevented the complainant from realizing
her prior high performance level. The complainant must be made whole as a result of the
management misconduct by restoring the complainant’s ratings to what they would have
been had the misconduct not taken place.



                                         5

    2.		 Impeding Compliance with Generally Accepted Government Auditing Standards.
         We substantiated the overarching allegation that management impeded the complainant’s
         ability to comply with Generally Accepted Government Auditing Standards (GAGAS),
         with one exception related to technical guidance requests. Management did impede
         compliance with GAGAS by imposing unreasonable time constraints and excessive
         emphasis on metrics. In doing so, Western Region management hindered the
         complainant’s ability to perform a quality audit. The Internal Review report cited certain
         audits where management overemphasized metrics and imposed unreasonable time
         constraints, while appearing to ignore audit quality. We also agree with Internal
         Review’s conclusion that the supervisor’s flawed process for requesting budget hour
         increases could impact GAGAS by impeding the complainant’s ability to perform quality
         audits.

        DCAA did not take any specific actions in this case for improving the process of
        requesting budget hour increases because the supervisor who used the flawed process has
        since retired. Agency-wide, DCAA eliminated 18 productivity measures,
        developed 8 new performance measures, and re-emphasized its policy on zero-based
        budgeting 2 in September 2008. DCAA also made significant revisions to its training
        program provided to managers and supervisors. We plan to evaluate the effectiveness of
        these corrective actions under separate reviews.

        We disagree with a portion of the complaint alleging that management prevented the
        complainant from complying with GAGAS when the supervisor required his team to
        coordinate all engineering technical guidance requests through him. The supervisor has
        the discretion of establishing such a procedure and we found no evidence that it hindered
        the complainant’s ability to comply with GAGAS. However, we disagree with the
        Internal Review conclusion that the complainant did not follow proper procedure when
        she requested technical guidance. The complainant complied with existing procedure
        which allowed her to contact the engineer directly. The supervisor subsequently changed
        the procedure to require that future requests be coordinated through him, and we found
        no violation of the changed procedure.

    3.		 Undue Stress Forced the Downgrade. We substantiated the allegation that undue
         stress imposed by management essentially forced the complainant to request a downgrade
         to avoid continuing harassment. As discussed above, the appraisal ratings and promotion
         potential scores given to the complainant after she transferred to the Western Region
         were inaccurate, unfair, and lacked credibility.

        Indications of undue stress and harassment from Western Region management are
        numerous. For example, the complainant received a 2007 mid-year rating which
        indicated that she was performing at the fully successful level yet, without warning, the
        complainant ended up receiving a minimally successful rating at year end. We noted that

2
 Zero-based budgeting is the process during which the supervisor and the auditor discuss and agree on the budgeted
hours required to perform an audit based on the risk assessment, audit scope, and audit program.


                                                        6

the supervisor had initially drafted a year-end appraisal rating of fully successful, but the
rating was revised to minimally successful after the supervisor consulted with the
manager of the audit team. The personnel files do not include an explanation for revising
the rating. Even as revised, the 2007 rating does not support a minimally successful
rating. The 2007 rating comments include several noteworthy accomplishments, such as
exceeding budget goals on certain assignments by 30 percent. Although a few negative
comments were added to the revised rating, Internal Review concluded they were
unfounded.

In 2008, management harassed the complainant throughout the year on immaterial budget
overruns and other matters. Yet we noted that the complainant was only 23 hours over
budget out of 1,382 budgeted hours for all of her assignments in 2008, or 1.7 percent over
budget. Internal Review also concluded that management’s overemphasis on metrics
resulted in poor management practices and flawed performance appraisal criteria. The
complainant’s supervisor sent the following email regarding requests for budget
increases:

          “....In no case will a budget increase be approved to cover a budget overrun. Also,
          when a request for budget increase is made for an assignment where the budget has
          already been overrun, any approved budget increase will be reduced by the amount of
          the budget overrun….”

Like Internal Review, we find that applying such a restrictive process not only impeded
compliance with GAGAS, it was harmful to the complainant and caused her great
frustration.

Internal Review also noted that management failed to work with the complainant or
counsel her on the alleged decline in performance. If the complainant’s performance had
actually slipped in 2006 and thereafter, the supervisor was required to counsel her.
DCAA Personnel Manual chapter 17, Section 3.2(a) requires informal and formal
counseling, throughout the year. Section 4-1(i) and (g) emphasizes the importance of
counseling employees as soon as the need presents itself and developing the necessary
training to improve employees’ performance. Internal Review and DoD IG found no
evidence that management had adequately counseled her or helped her to improve her
alleged decline in performance as required. Although the complainant provided full
explanations in response to negative criticism, those explanations were sometimes
ignored by management. In one case, we found that management had criticized the
complainant in a working paper, but management did not even route it to the complainant
for explanation or correction. The complainant did not learn about the criticism until she
received her minimally successful rating in 2007.

Management’s failure to communicate effectively with the complainant was also evident
when the supervisor inappropriately included her test score in one of the complainant’s
audit working paper packages. Including the test score in the working paper package
where others could view it violated the complainant’s right to privacy. While the
complainant repeatedly requested in 2007 that the test score be removed, management once


                                             7

      again ignored the complainant. Management did not remove the test score until Internal
      Review instructed them to do so in February 2010.

      Rather than counsel the complainant, management instead planned to place her on a
      Performance Improvement Plan in April 2008, whereby the complainant had to show
      improvement within 90 days or face termination.

      The overall treatment of the complainant suggests a pattern of stress and harassment so
      severe that the complainant requested a lower graded position at another office. We
      could not ascertain why Western Region management treated the complainant as poorly
      and unfairly as they did. The Internal Review report noted that the complainant was not a
      welcome addition to the Western Region audit team. Internal Review personnel told us
      they suspected that management wanted to fill her position with someone else within the
      Western Region but Headquarters required them to fill it with the complainant.

      We commend Internal Review for recognizing this pattern of harassment and
      recommending reinstatement of her grade level with back pay. Internal Review also
      recommended paying the complainant a team award that Western Region management
      had unjustifiably denied her. While Internal Review did not recommend disciplinary
      action against those supervisors and managers who caused the harassment, Western
      Regional management is ultimately responsible for imposing such discipline in
      accordance with the Chapter 50 of the DCAA Personnel Manual. It was also not evident
      whether Western Region management implemented changes to its procedures in an effort
      to help prevent future reoccurrences. Failure to take appropriate action sends an
      unacceptable signal to management and employees that such conduct is, and will be,
      tolerated. Although two of the four supervisors and managers who participated in the
      inappropriate treatment have since retired, the remaining two still remain with the
      Agency in the same managerial pay grade.



Recommendations, Management Comments, and
Our Response
Recommendation A:                     We recommend that the Director, Defense Contract
Audit Agency:

   1.		 Reassess the complainant’s 2006 through 2008 performance appraisal ratings and
        promotion potential scores, considering
           a.		 all appraisal criteria and work performed by the complainant; and
           b.		 the harassment that the complainant endured;

         Management Comments. The Deputy Director concurred. The Deputy Director
         said that DCAA was not in a position to reconstruct the employee’s ratings because


                                               8

      the environment did not allow her to perform at her previously demonstrated
      potential. As an alternative, DCAA will revise the employee's 2006 through 2008
      ratings and promotion potential scores to her 2005 demonstrated level of performance
      without any additional analysis. If appropriate, DCAA will also grant any award that
      might be due to the complainant for 2006 through 2008. DCAA will destroy all prior
      ratings for 2006 through 2008.

      Our Response. The management comments are responsive. The alternative plan to
      revise the complainant’s ratings to her 2005 demonstrated level of performance will
      satisfy the recommendation.

2.		 Examine whether the adjusted fully successful ratings for 2006 through 2008 unduly
     influenced any subsequent performance appraisal ratings and promotion potential
     scores;

      Management Comments. The Deputy Director concurred. By November 30,
      2010, DCAA will complete an assessment of the 2009 through 2010 performance
      appraisal ratings and the promotion potential score for the most recent year ended.

      Our Response. The management comments are responsive. Once completed,
      DCAA should provide the results of the 2009 and 2010 assessments to the DoD
      Assistant Inspector General for Audit Policy and Oversight.

3.		 Make any appropriate adjustments to the performance appraisal ratings and
     promotion potential scores for 2006 and beyond based on the reassessment and
     examination performed in response to Recommendations A.1. and A.2.

      Management Comments. Although DCAA did not specifically comment on this
      recommendation, it was adequately addressed in the management comments to
      Recommendation 1.a. above based on Deputy Director’s alternative plan to revise the
      complainant’s ratings to her 2005 levels.

      Our Response. The management comments are responsive.

4.		 Take appropriate administrative actions for the improper use of the performance
     appraisal process as a means of harassment by Western Region management
     officials; and

      Management Comments. The Deputy Director concurred. The Internal Review
      team will reissue its report to the new Western Regional Director, asking him to
      consider appropriate action. The Deputy Director will request a 30-day status report
      until the action is complete.

      Our Response. The management comments are responsive.



                                           9

5.		 Evaluate the adequacy of current quality assurance procedures (including policies,
     internal controls, and training) to help prevent future instances where management
     uses performance appraisal ratings as a means of harassment.

       Management Comments. The Deputy Director concurred. Internal Review has
       revised its practices to document this type of evaluation during its investigations. In
       addition, DCAA is requiring that all managers and supervisors attend a supervisory
       course by March 2011, which addresses issues found during this investigation.

       Our Response. The management comments are responsive.




                                            10 

Appendix A. Scope and Methodology
We reviewed the DoD Hotline complaint to determine if we could substantiate the allegations.
As part of our review, we:

   •		 reviewed the results of an investigation that DCAA Internal Review conducted;

   •		 obtained and reviewed the working papers prepared and supporting documents gathered
       as part of the DCAA Internal Review investigation:

   •		 interviewed the DCAA official who conducted the Internal Review investigation;

   •		 interviewed the complainant and obtained additional documents related to the complaint;

   •		 reviewed applicable DCAA policies and procedures, such as the DCAA Personnel
       Manual, Chapter 17, “Performance Management System”; and

   •		 verified DCAA corrective actions taken and remedies provided to the complainant as a
       result of the Internal Review investigation.

We performed this review from January 2010 through September 2010.

Use of Computer-Processed Data. DCAA uses a Web-based data system to maintain all
audit working papers, performance appraisals and promotional potential scores. However, we
verified all data relied on during this review to source documents.

Prior Coverage
During the last 5 years, the DoD IG has issued one report related to audit work deficiencies and
work environment issues at DCAA, under Report No. D-2009-6-009, “Defense Contract Audit
Agency Audit Work Deficiencies and Abusive Work Environment Identified by the Government
Accountability Office,” August 31, 2009.




                                               11 

   Appendix B. Chronology of Events


Date                 Event Description
October 3, 2005      Complainant transferred to the DCAA, Western Region audit team
November 15, 2006    Complainant received a fully successful appraisal rating for the
                     period October 1, 2005 through September 30, 2006
November 29, 2006    Complainant informally disputed her 2006 rating in a memorandum
                     to the manager of the audit team
November 19, 2007    Complainant received a minimally successful performance rating
                     for the period October 1, 2006 through September 30, 2007
November 19, 2007    Complainant filed a formal grievance of her appraisal with the
                     DCAA, Western Region Regional Special Program Manager
December 4, 2007     Regional Special Program Manager rejected her grievance and
                     maintained the minimally successful performance rating
April 24, 2008       Complainant requested a downgrade to a Senior Auditor position
                     (grade 12)
May 19, 2008         Complainant received an unacceptable performance rating for the
                     period October 1, 2007 through May 10, 2008
September 23, 2008   Complainant sent a complaint to the Director of DCAA, contesting
                     her unacceptable rating and alleging harassment
September 24, 2008   DCAA Headquarters referred the complaint to the DoD Hotline
September 24, 2008   DCAA Internal Review team launched its investigation
January 29, 2009     DCAA Internal Review held an exit conference with the Regional
                     Director, Western Region, and the complainant to discuss its draft
                     findings and planned actions
February 11, 2009    DCAA adjusted the complainant’s appraisal covering the period
                     October 1, 2007 through May 10, 2008 from unacceptable to fully
                     successful
February 23, 2009    DCAA reinstated the complainant’s grade 13
March 13, 2009       DCAA revised the complainant’s appraisal rating covering the
                     period October 1, 2006 through September 30, 2007 from
                     minimally successful to fully successful
March 19, 2009       Complainant received partial back pay for the loss in wages
                     resulting from the downgrade
March 20, 2009       Complainant received a 2007 team award previously denied to her
February 18, 2010    DCAA Internal Review issued its completion report
July 9, 2010         Complainant received the remainder of the back pay due to her




                                         12 

SUBJ ECf:      Response to Department of Defense Inspector General (DODIG) Drufl Report . HOTline
               Allegations of Mallagemelll HlIrassmelll /1II'olvillg the Defense Comract Audit AgellCY
                Wesfem Region.                             (Project No. D2010- DIPOAI·025 1.000j

     DC AA Response. Concu r . By DCAA policy , yearly ratings are based sole ly on work in that period
     and therefore there should be no " undue subsequem inOuence.'· To 4lssure thi s did not happen. IR
     wi ll complete a n assessment of the FY 2009 - FY 20 10 performance <lppraisal ratings and the
     promotion potential score for the mot recent year ended. by Nove mber 30. 20 IO.

3. Take appropriate administrative actions for the improper usc of the performa nce apprai sal process as
   a means of harassment by Westem Region man<lgcmcnt official s; and

     n CAA Response. Concur. The DCAA IR team was focused on assessing the validity of the ratings.
     and. once it concluded that the ratings were deficienl. the recommendali ons were directed at making
     the employee whole. As noled in the DoD IG drafl report . most of these corrective act ions were
     comple ted by March 2009 based on IR co mmu nication wi th regional lllanagcment in ad vance of the
     report issuance in February 20 10. Therefore. most of the make whole actions were completed within
     :; ix months of the allegation. However, the e;lrlier IR report docs nol contain an ex pl icit
     recommendation 10 hold people accountable. and we will rei ssue the IR report 10 do so. Accordi ngly.
     the IR tea m will reissue its rcport to the new Regional Director asking him to consider appropriate
     action . We will rcq uest a 30 day status report until action is completc.

4.   Evaluate the adequacy of curren t quality assurance procedures (i ncluding policies. intern:11 controls.
     and training) to help preve nt fu ture instances where management uses performance appmisa l rati ngs
     as a means of harassmen t.

     DCA A Response. Concur. The innppropriate lise or performance apprais<ll s is already contrary to
     DCAA policy and the IR report relics on the ex isting pol icies to that errect. However. IR has revi sed
     its practi ces to document this type of eva luation during its in vestigations. In addition, we arc having
     all DCA A managers ill1d supervisors attend Ihe new sU I>crvisory course . which already addresses
     issues found during th is investi gation, offered by DCAI by the end of March 20 11 .

         Please direct any que:;t ions on thi s me morandum to the unders igned at (703) 767-3200.




                                                    Depu ty Director




                                                       2




                                                           14 

· , ..
